HHS/OIG, Audit -"Duplicate Medicare Payments to Cost-Based Health Maintenance Organizations
Plans for Arnett Health Plan, Inc. for the Fiscal Years 2000, Through 2003,"(A-05-05-00044)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Duplicate Medicare Payments to Cost-Based Health Maintenance Organizations Plans for Arnett
Health Plan, Inc. for the Fiscal Years 2000, Through 2003," (A-05-05-00044)
September 9, 2005
Complete
Text of Report is available in PDF format (203 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the audit was to determine whether services performed by the Arnett Health Plan Inc.s
capitated provider were also being reimbursed under the Medicare fee-for-service payment system.  We
determined that Arnett's capitated provider filed Medicare claims, for which they were paid on a fee-for-service
basis, while under a capitation arrangement with Arnett.  The capitation arrangement, which provides
for a per member, per month payment to Arnett's capitated provider, covered allowable service performed
by the provider to Arnett's enrollees.  Medicare reimbursed Arnett for the capitation payments
made to the provider by Medicare are considered overpayments.  During our audit period, inappropriate
Medicare fee-for service billings by Arnett's capitated provider amounted to $111,862.
We recommended that Arnett recover the $111,862 in duplicate Medicare fee-for-service claims made
to the capitated provider and that Arnett develop an efficient and effective system to preclude and
detect duplicate payments from the capitated provider.  Arnett Health Plan, Inc. refunded $24,042
to Medicare and that the remaining $87,820 will be refunded.  Arnett has taken action to enhance
their duplicate payments policies and procedures.